     MANAGEMENT ADVISORY REPORT



Cloud Computing Contract
Clauses
  April 30, 2014




                   Report Number SM-MA-14-005
                                                                     HIGHLIGHTS

                                                                      April 30, 2014
                                                 Cloud Computing Contract Clauses
                                                       Report Number SM-MA-14-005

BACKGROUND:                                  WHAT THE OIG FOUND:
Cloud computing uses remote servers          The 13 cloud computing contracts did
on the Internet to manage, store, and        not address information accessibility
process data. Using cloud computing          and data security for network access
reduces costs while increasing the           and server locations because the
efficiency of services; however, it also     Information Security handbook in effect
has risks associated with data leaks and     at the time of the contract award did not
loss of public trust. U.S. Postal Service    include these requirements. In addition,
Supply Management (Technology                the Postal Service exempted a supplier
Infrastructure Portfolio) contracting        from following the handbook for one
officials awarded 13 contracts totaling      contract that did not contain sensitive
about $303 million for cloud computing       data. Although the data may not be
services from fiscal years 2007 to 2013.     sensitive, the handbook provides
The Postal Service’s Information             additional requirements such as
Security handbook of 2002 was in effect      insurance against losses resulting from
when officials awarded these contracts.      data breaches and procedures for timely
                                             notification of these breaches.
The Council of Inspectors General on
Integrity and Efficiency issued a            The Postal Service’s Cloud Security
memorandum in 2011 on information            handbook addresses the information
accessibility, data security, and privacy    accessibility and data security gaps.
concerns that federal agencies should        However, contracting officials were
consider before entering into cloud          concerned that including the policy in
computing contracts. The memorandum          existing cloud computing contracts could
identifies areas of concern for federal      increase contract costs. As a result, we
agencies but is not mandatory for the        identified potential costs of $12,429,228
Postal Service. In August 2013, the          for mitigating cloud security risks.
Postal Service issued the Cloud
Security handbook establishing               WHAT THE OIG RECOMMENDED:
information security policies and            We recommended management include
requirements to protect its information in   Information Security and Cloud Security
a cloud computing environment.               handbook requirements in future cloud
                                             computing contracts, regardless of data
Our objective was to assess whether          sensitivity, and assess the costs and
cloud computing contracts have               benefits of incorporating these
adequate controls to address                 requirements into existing cloud
information accessibility, data security,    computing contracts.
and privacy concerns.
                                             Link to review the entire report
April 30, 2014

MEMORANDUM FOR:            SUSAN BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           CHARLES L. MCGANN
                           MANAGER, CORPORATE INFORMATION SECURITY




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Cloud Computing Contract
                           Clauses (Report Number SM-MA-14-005)

This report presents the results of our review of Cloud Computing Contract Clauses
(Project Number 13YG033SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Cloud Computing Contract Clauses                                                                                  SM-MA-14-005




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Cloud Computing Contracts and Policy ........................................................................... 2

      Information Accessibility ........................................................................................... 2

      Data Security ............................................................................................................ 2

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

      Background .............................................................................................................. 7

      Objective, Scope, and Methodology ......................................................................... 7

      Prior Audit Coverage ................................................................................................ 8

Appendix B: Other Impact ............................................................................................... 9

Appendix C: Management’s Comments ........................................................................ 10
Cloud Computing Contract Clauses                                                                      SM-MA-14-005




Introduction

This report presents the results of our review of Cloud Computing Contract Clauses
(Project Number 13YG033SM000). Our objective was to assess whether U.S. Postal
Service cloud computing contracts have adequate controls to address information
accessibility, data security, and privacy concerns. See Appendix A for additional
information about this review.

Cloud computing uses remote servers on the Internet to manage, store, and process
data. Using cloud computing reduces costs while increasing the efficiency of services;
however, it also has risks associated with leakage of data and loss of public trust. Postal
Service Supply Management Technology Infrastructure Portfolio1 contracting officials
awarded 13 contracts totaling about $303 million for cloud computing services from
fiscal years (FY) 2007 to 2013. The Postal Service Information Security handbook2 of
2002 was in effect when officials awarded these contracts.

The Council of Inspectors General on Integrity and Efficiency (CIGIE)3 issued a
memorandum in 2011 on the information accessibility, data security, and privacy
concerns federal agencies should consider before entering into cloud computing
contracts. The memorandum identifies areas of concern for federal agencies but is not
mandatory for the Postal Service. In August 2013, the Postal Service issued policies4
that established information security procedures and requirements to protect its
information in a cloud computing environment.

Conclusion

The 13 cloud computing contracts did not address information accessibility and data
security for network access and server locations. The version of Handbook AS-805 that
was in effect when officials awarded the contracts did not include these as
requirements. In addition, the Postal Service exempted a supplier from following the
handbook in one contract because the contract did not contain sensitive data. Although
data may not be sensitive, Handbook AS-805 provides additional requirements for
insurance against losses resulting from data breaches and making timely notification of
these breaches. Handbook AS-805H addressed the information accessibility and data
security gaps; however, contracting officials were concerned that including the policy in
existing cloud computing contracts could increase contract costs.

Contract language that inadequately addresses information accessibility and data
security concerns increase the risk of data compromises and system breaches. As a

1
  The Technology Infrastructure Portfolio is responsible for managing the purchase of technology-related products
and services, such as retail systems, telecommunications, and information technology (IT) hardware and software.
2
  Handbook AS-805, Information Security, 2002.
3
  The CIGIE develops policies, standards, and approaches to aid in the establishment and training of the Offices of
Inspectors General.
4
  Handbook AS-805H, Cloud Security, August 2013.
                                                            1
Cloud Computing Contract Clauses                                                                 SM-MA-14-005



result, we identified potential costs of $12,429,228 for mitigating cloud security risks.
See Appendix B for additional information on other impact.

Cloud Computing Contracts and Policy

The Postal Service included language in 13 cloud computing contracts to address
privacy concerns; however, it did not include adequate language to address information
accessibility and data security for network access and server locations. The information
security policy in effect at that time did not include these requirements. In August 2013,
the Postal Service updated Handbook AS-805H to bridge gaps in the information
security policy.

Information Accessibility

The Postal Service did not require Cloud Service Providers (CSP) for all 13 contracts to
state the amount of access they should have to the network over which postal
information and data travel. The Postal Service did not require real-time monitoring
capability and network access for the U.S. Postal Service Office of Inspector General
(OIG) in one contract. The Postal Service should maintain access to the network to
perform tests and ensure necessary access is available to security officials for
investigative functions. It should also have real-time monitoring capability to guard
against external attacks. OIG access is equally important when addressing information
accessibility concerns. Supplying Principles and Practices (SP&P)5 gives the Postal
Service access to the CSP records; however, it does not specifically address OIG
access to the cloud network to audit and investigate programs and employees.

Data Security

The Postal Service did not require CSPs for all 13 contracts to provide the locations of
all servers containing Postal Service data. In addition, the Postal Service did not include
language to address the following in one contract:

   Incident Responsiveness – This ensures the vendor is aware of Postal Service
    requirements for mitigation and notification of data breaches and loss. The Postal
    Service should be aware of server locations and know where information is stored
    for accountability.

   Restricted Access – Restricting access to the servers and cloud data ensures that
    only authorized individuals have access.

   Vendor Indemnification – Vendors should indemnify6 the Postal Service from
    accepting responsibility for the costs and liability of data breaches and loss.


5
  SP&P Clause 4-2, Contract Terms and Conditions Required to Implement Policies, Statutes or Executive Orders
(July 2009).
6
  Indemnification protects the Postal Service by requiring CSPs to pay for possible future damage or loss.


                                                       2
Cloud Computing Contract Clauses                                                                 SM-MA-14-005



     Cloud Data Ownership – Although vendors may be responsible for the cloud
      environment, the data belong to the Postal Service and contract language must
      specify ownership and requirements for disposal of cloud data after contract
      completion.

The CIGIE issued a memorandum7 in 2011 identifying potential concerns that federal
agencies should consider before entering into cloud computing contracts. These
concerns are in the areas of data security, information accessibility, and regulatory
compliance. The memorandum identified sub-areas within the three major areas of
concern.8 Addressing these concerns would help prevent system breaches and data
leaks and ensure access to information needed for investigations (see Table 1).

                        Table 1. Cloud Computing Contract Concerns

                                                                            Contracts           Contract
    No.   Area of Concern                      Sub-Area                      at Risk             Value

           Data Security               List of server locations
    1.
                                                                                       13 $303,313,273
                                    Access to the network over
            Information
                                    which information and data
    2.      Accessibility
                                               travel
            Information
                                        Real-time monitoring
    3.      Accessibility
            Information
    4.                                        OIG access
            Accessibility
    5.     Data Security               Vendor indemnification

    6.     Data Security              Incident responsiveness
                                                                                         1        $172,0809
    7.     Data Security               Cloud data ownership

    8.     Data Security                  Restricted access
            Regulatory
    9.                                           Privacy                                 0                 $0
            Compliance
Sources: CIGIE memorandum and OIG analysis.

At the time the Postal Service awarded10 the 13 contracts, it had an information security
policy that addressed seven of the nine topics within the three major areas of concern
7
  Cloud Computing Contracting Concerns, 2011.
8
  The CIGIE memorandum listed eight major areas of concern. Our scope examined three major areas of concern
because the remaining concerns overlapped topics addressed in those three areas or were addressed in the SP&P.
9
  One contract did not include Handbook AS-805, Information Security, requirements and did not address cloud
computing concerns 3 through 9, as depicted in Table 1.
10
   The Postal Service awarded the 13 contracts from FYs 2007 to 2013.


                                                       3
Cloud Computing Contract Clauses                                                                      SM-MA-14-005



we reviewed. However, the policy did not address access to the network over which
Postal Service information and data travel or cloud server locations. Contracting officials
did not include the information security policy or SP&P Clause 4-19, Information
Security, which references these policies,11 and other information security-related
handbooks in the contract language for one of the 13 contracts. Officials obtained a
waiver from the Corporate Information Security Office (CISO)12 excluding this contract
from the provisions of Clause 4-19 because the contract did not contain sensitive
information. Although the data may not have been considered sensitive, Clause 4-19
provides additional protections and should be in all IT contracts. Further, the CSP is a
                                                             . Although the CISO
approved a waiver excluding the clause, the Postal Service was still exposed to
increased data security and information accessibility risks as the data were housed
outside the country. Postal Service policy requires all servers, including back-up
servers, to be in the contiguous U.S.13

In August 2013, the Postal Service issued Handbook AS-805H, which bridged gaps in
the information security policy and incorporated Federal Risk and Authorization
Management Program (FedRAMP)14 certification requirements. It requires CSPs to
provide the Postal Service with their server locations and state the amount of access to
the network the Postal Service should retain. However, contracting officials stated they
did not plan to modify SP&P Clause 4-19 to include the requirements of the new cloud
security policy because they did not have guidance on cloud computing and did not
receive a request from the CISO to update the SP&P. Contracting officials also stated
they did not plan to modify existing contracts to include the increased security
requirements, such as compliance with FedRAMP, because it may require CSPs to
change their business processes or systems and would increase contract costs.

Two of the CSPs,15 whose three contracts totaled $136,114,238, are FedRAMP-
certified; therefore, the Postal Service should not be subject to additional costs for
incorporating FedRAMP into the contracts. In addition,                              , a CSP
to whom the Postal Service awarded a contract valued at $2 million in August 2013,
voluntarily proposed pursuing FedRAMP certification in its technical proposal, although
it was optional in the solicitation.

The Postal Service's issuance of Handbook AS-805H shows that it is aware of the
significant risks in using cloud computing services; however, without guidance on
procuring cloud computing contracts and contractual language requiring CSPs to

11
   Handbook AS-805 establishes policies to appropriately identify, classify, and protect Postal Service information
resources.
12
   CISO establishes the overall strategic and operational plan for Postal Service information security programs and
necessary implementation strategies.
13
   AS-805H Section 8-3, Privacy Contract Requirements, states that data stored outside the U.S. cannot be protected
under the Privacy Act and may allow for certain local or foreign law enforcement authorities to search Postal Service
data pursuant to a court order, subpoena, or informal request outside the control of the Postal Service.
14
   A government-wide program established in December 2011 that standardizes how federal agencies incorporate
security assessment, authorization, and continuous monitoring for cloud computing contracts. Although exempt from
the program, the Postal Service choses to comply.
15




                                                          4
Cloud Computing Contract Clauses                                                SM-MA-14-005



comply with the new cloud security policy, the Postal Service remains exposed to
potential information accessibility and data security risks in the cloud computing
environment.

The Ponemon Institute, which conducts independent research on privacy, data
protection, and information security, issued a study on the cost of cyber crime.16 The
study indicates that information theft, including theft of trade secrets and customer
information, is the most critical consequence of a cyber attack. The loss of customer
information could have an adverse effect on the goodwill of and impact on the Postal
Service brand. Additionally, the Ponemon study indicated the average cost to resolve a
cyber attack is $1,035,769 per incident. Based on this information, we estimate the
Postal Service’s potential exposure costs associated with 1217 contracts could be as
high as $12,429,228 (see Appendix B).

Recommendations

We recommend the vice president, Supply Management, in coordination with the
manager, Corporate Information Security:

1.      Include requirements from Handbook AS-805, Information Security, and Handbook
        AS-805H, Cloud Security, in future cloud computing contracts regardless of data
        sensitivity.

We recommend the vice president, Supply Management:

2.      Assess the cost and benefits of negotiating post-award agreements with cloud
        service providers to incorporate requirements from Handbook AS-805, Information
        Security, and Handbook AS-805H, Cloud Security, into existing cloud computing
        contracts.

Management’s Comments

Management generally agreed with the finding, recommendations, and other impact
associated with this report.

In response to recommendation 1, management stated they have directed the IT
Software, Services and Retail Systems and Telecom and Information Hardware
Category Management Centers to include Handbooks AS-805 and AS-805H in all new
cloud-based contracts. However, Supply Management, in coordination with the CISO,
will issue guidance to all contracting officials and others in the Chief Information
Officer’s office on incorporating the referenced handbooks; using appropriate clauses;
and summarizing the necessity for information accessibility, data security for network
access, and capturing server location details in future cloud computing contracts. The
target implementation date is June 2014.

16
     Ponemon Institute 2013 Cost of Cyber Crime: United States, October 2013.
17
     We excluded one contract from our calculation because it had expired.


                                                          5
Cloud Computing Contract Clauses                                              SM-MA-14-005




Regarding recommendation 2, management will obtain the pricing impact of modifying
the 13 contracts identified in this report to include Handbooks AS-805 and AS-805H
requirements. Contracting officials and the requirements office will assess the
associated costs to determine whether the benefits of including the handbooks'
requirements in the contract outweigh the additional cost. The target implementation
date is July 2014. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The OIG considers
all the recommendations significant, and therefore requires OIG concurrence before
closure. Consequently, the OIG requests written confirmation when corrective actions
are completed. These recommendations should not be closed in the Postal Service’s
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                            6
Cloud Computing Contract Clauses                                                                    SM-MA-14-005




                                Appendix A: Additional Information

Background

Cloud computing is the practice of using remote servers on the Internet to manage,
store, and process data. The Postal Service Supply Management Technology
Infrastructure Portfolio's contracting officials awarded 13 contracts totaling about
$303 million for cloud computing services from FYs 2007 to 2013.

The CIGIE issued a memorandum in 2011 outlining the concerns that federal agencies
must be aware of before entering into cloud computing contracts. The memorandum
identified eight areas of concern – information accessibility, data security, regulatory
compliance, termination and transition, asset availability, maintenance, pricing and time,
and intellectual property. Our review focused on three areas – information accessibility,
data security, and regulatory compliance related to privacy.

FedRAMP supplements the National Institute of Standards and Technology's18 (NIST)
Special Publications, which provide federal agencies with a information systems risk
management framework. Several agencies, including the U.S. Department of Homeland
Security, U.S. Department of Defense, and U.S. General Services Administration,
coordinated the development of FedRAMP. In December 2011, before the
establishment of FedRAMP, each agency developed and incorporated cloud security
measures into its own contract. Severe overlap and inefficiency existed because each
agency managed its own security risks and provided security assessments and
authorizations for each IT system used. This was costly and inefficient as agencies may
have assessed, authorized, and deployed the same system. FedRAMP security
protocols provide one-stop shopping for federal agencies and CSP with a process that
is completed once but used many times.

Objective, Scope, and Methodology

Our objective was to assess whether the Postal Service’s cloud computing contracts
have adequate controls to address information accessibility, data security, and privacy
concerns. Our scope was limited to 13 cloud computing contracts identified by the
Supply Management Technology Infrastructure Portfolio that were awarded between
FYs 2007 and 2013. To accomplish our objective, we:

    Reviewed Postal Service policies, procedures, and guidelines related to audits,
     investigations, and privacy.

    Reviewed federal government laws and regulations.



18
  NIST is responsible for developing standards and guidelines, including minimum requirements, for providing
adequate information security for all federal agencies.


                                                         7
Cloud Computing Contract Clauses                                                SM-MA-14-005



   Reviewed the CIGIE IT Subcommittee memorandum on cloud computing contracting
    concerns.

   Reviewed the CIGIE IT Subcommittee’s proposed Federal Acquisition Regulation
    clause addendum.

   Reviewed documentation for 13 cloud computing contracts to determine whether
    Postal Service contracting officials:

    o Solicited contracts with FedRAMP requirements.

    o Included security requirements that protect the Postal Service cloud contracts.

    o Included language in cloud computing contracts allowing equal accessibility
      requirements for the OIG.

   Interviewed OIG Office of General Counsel and IT staff to learn about the
    applicability of FedRAMP requirements to the Postal Service.

We conducted this review from August 2013 through April 2014, in accordance with the
CIGIE, Quality Standards for Inspection and Evaluation. We discussed our observations
and conclusions with management on April 7, 2014, and included their comments where
appropriate.

We assessed the reliability of computer-generated data by comparing the contract
values obtained from the Postal Service's Enterprise Data Warehouse to hard copy
contract documentation. We determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

The OIG issued Cloud Computing (Report Number IT-AR-12-006, dated May 9, 2012),
which concluded that opportunities exist for the Postal Service to use cloud computing
technology to support IT operations, resources, and infrastructure. However, no
overarching adoption strategies exist to determine which cloud deployment or service
models are best suited for current IT operations or resources. The Postal Service did
not have a consistent strategy or approach for determining the risks and benefits of
implementing cloud computing technology. The OIG made three recommendations,
including development of a common definition for cloud computing technology within the
Postal Service and a cloud computing technology strategy. Management agreed with
the findings and recommendations.




                                            8
Cloud Computing Contract Clauses                                                                        SM-MA-14-005




                                         Appendix B: Other Impact

            Recommendation                          Impact Category                        Amount
                  1                                   IT Security19                       $12,429,228

We calculated other impact based on 12 potential applications at risk20 and the
Ponemon Institute’s 2013 research report,21 which revealed the average cost per
breach to an organization ($1,035,769). Each contract represents a separate Postal
Service application. We derived the total other impact by multiplying $1,035,769 by 12
(the number of applications at risk) because the active contracts did not include
adequate contract language to address information accessibility and data security
concerns.




19
   IT security includes computer software, networks, and data that are vulnerable or at risk of loss because of fraud,
inappropriate or unauthorized disclosure of sensitive data, or disruption of critical Postal Service operations and
services.
20
   The Supply Management Technology Infrastructure Portfolio manager provided a list of 13 cloud computing
contracts in September 2013. We excluded one contract from our calculation because it had expired.
21
   Ponemon Institute, 2013 Cost of Cyber Crime: United States, October 2013.


                                                           9
Cloud Computing Contract Clauses                             SM-MA-14-005




                         Appendix C: Management’s Comments




                                        10
Cloud Computing Contract Clauses        SM-MA-14-005




                                   11
